TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Tax Examiners Did Not Always Resolve
                   Return Delinquency Cases, and Computer
                    Checks Did Not Identify Unfiled Returns



                                       December 20, 2007

                              Reference Number: 2008-30-027




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               December 20, 2007


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Tax Examiners Did Not Always Resolve Return
                               Delinquency Cases, and Computer Checks Did Not Identify Unfiled
                               Returns (Audit # 200630008)
 This report presents the results of our review of the Return Delinquency Program. The overall
 objective of this review was to determine whether the Compliance Services Collection
 Operations administered the Return Delinquency Program in a manner that ensured accurate and
 timely resolution on Return Delinquency notice responses. This audit was included in the
 Treasury Inspector General for Tax Administration’s Fiscal Year 2007 Annual Audit Plan.

 Impact on the Taxpayer
 The Internal Revenue Service (IRS) Return Delinquency Program identifies taxpayers who have
 not filed a tax return by the return due date. The IRS reported it issued more than 1.6 million
 initial Return Delinquency notices to Business Master File1 taxpayers in Calendar Year 2006.
 Some of the Return Delinquency cases we reviewed were not resolved accurately and timely,
 and the IRS needs to improve its computer program to identify business taxpayers that may be
 liable for employment taxes. Accurate and timely case actions reduce taxpayer burden and
 redefined return delinquency identification criteria increase revenue.

 Synopsis
 We determined some operational internal controls were effectively established. Managers
 systemically assigned Return Delinquency cases to tax examiners, managers received proper

 1
  The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
 employment taxes, income taxes on businesses, and excise taxes.
                      Tax Examlnem Dld Not Always Resolve Return Delinquency
                     Cases, and Computer Checks Dld Not Identify Unflled Returns



training, and managers at                           arnpusZconducted required operational and worlcload
reviews.
However, our review determined that tax examiners' actions on 36 (24 percent) of 150 cases
reviewed were incorrect, incomplete, or not timely.' In 23 cases, the tax examiners did not make
the correct case resolution decision, inappropriately eliminated future inquiries for missing
returns, or did not complete internal processing requirements. The remaining 13 case actions
were not completed within the IRS' 45-day time ~tandard.~      When Return Delinquency cases are
not properly resolved, taxpayers might be unnecessarily burdened with additional notices
requesting returns they are not liable for filing. The issues were mainly confined to
Campus and results were similar to prior reviews conducted by IRS management.
Our review identified a serious weakness in which the Return Delinquency computer program
did not identie an unfiled Employer's Quarterly Federal Tax Return (Form 941) when an
Employer's Annual Federal Unemployment (FUTA] Tax Return (Form 940) was filed. As a
result, a significant amount of dollars may not be collected on accounts without corresponding
Forms 94 1.
We identified 28,933 taxpayers on IRS computer records that filed a 2005 Form 940 and
reported more than $3 billion in taxable Federal Unemployment Tax Act5wages, but these
taxpayers had not filed Form 941 for any quarter of 2005. Since the Federal Unemployment Tax
Act tax is imposed on only the first $7,000 in wages paid to each employee during the calendar
year, the potential amount of unreported wages paid subject to Federal income tax withholding,
Social Security, and Medicare taxes could significantly exceed the taxable Federal
Unemployment Tax Act wages, and the related unpaid tax could be significant.
An IRS official informed us the current Return Delinquency Program checks the filing
requirement of only a specified return type and it cannot cross reference other taxforms for an
indicator that a return is due. We were advised that this limitation and other issues prompted IRS
management to initiate development of the Case.Creation Nonfiler Inventory Program for
business taxpayers. When this program is fully developed in Fiscal Year 2008, the IRS official
expects to have the ability to cross reference third-party information documents and other tax
return filing requirements for indicators a return is due.




  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to
  We reviewed 50 closures fiom each of the 2 Taxpayer Delinquency                                       Campus
and 50 closures fiom the 1 Taxpayer Delinquency Investigation team                                      pendix IV
for a breakdown of the 150 cases by type of tax return and type of cas
  We did not determine why the time standard was not met. One of these cases is included in the 23 cases in which
the tax examiner did not take all appropriate actions.
' 26 U.S.C.4 33 11 (2005).
                  Tax Examiners Did Not Always Resolve Return Delhquency
                 Cases, and Computer Checks Dld Not Identify Unfiled Returns



Recommendations
We recommende                     ampus Compliance Services Collection Operations manager
ensure reviews th                 anagers' practices in performing technical case reviews are
completed quarterly. The Director, Campus Filing and Payment Compliance, Small
BusinessISelf-Employed Division, should modify the Return Delinquency case creation criteria
to ensure delinquency inquiries are made of related tax period Forms 94 1 and Form 940 and
should revise procedures to require full compliance checks for delinquent employment tax
returns of "in business" employers.

Resaonse




on their previous recommendations and on the findings in this report. IRS officials also advised
that pending changes to the business Return Delinquency case creation program will enable cross
checking of Forms 941 and Forms 940 beginning in April 2008. In addition, procedures
requiring 1 1 1 compliance checks of "in business" employers when an unemployment tax return
has been filed were implemented in November 2007. Management's complete response to the
draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations, Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-5894.




                                                                                              3
                        Tax Examiners Did Not Always Resolve Return Delinquency
                       Cases, and Computer Checks Did Not Identify Unfiled Returns




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Some Operational Controls Were Effectively Established...........................Page 3
          Tax Examiners Did Not Always Take Appropriate Actions When
          Resolving Return Delinquency Cases...........................................................Page 3
                    Recommendation 1:..........................................................Page 5

          A Systemic Problem Caused Unfiled Forms 941 Not to Be Identified ........Page 6
                    Recommendation 2:..........................................................Page 7


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Resolution Actions in Sample of Return
          Delinquency Correspondence .......................................................................Page 13
          Appendix V – Management’s Response to the Draft Report .......................Page 14
        Tax Examiners Did Not Always Resolve Return Delinquency
       Cases, and Computer Checks Did Not Identify Unfiled Returns




                      Abbreviations

CSCO            Compliance Services Collection Operations
IRS             Internal Revenue Service
                      Tax Ekamlners Old Not Always Resolve Return Del/nquency
                     Cases, and Computer Checks Old Not Identify Uni7Ied Returns




                                              Background

The Internal Revenue Service (IRS) Return Delinquency Program identifies taxpayers who have
not filed a tax return by the return due date. For business taxpayers, the due date for filing
returns varies based on the type of return and/or the taxpayer's selected accounting period.
Therefore, Business Master File' Return Delinquency cases are created throughout the year after
the IRS completes processing for a specified type of return. The Return Delinquency computer
program identifies a return as delinquent when a filing requirement2exists on a taxpayer's record
that does not have the specified return posted. The IRS issues notices requesting original returns
from taxpayers whose delinquent return modules are selected by the Return Delinquency
Program. The IRS reported it issued more than 1.6 million initial Return Delinquency notices to
Business Master File taxpayers in Calendar Year 2006.
The IRS processes taxpayer responses to Business Master File Return Delinquency notices at its
five Small Business/Self-Employed Division Compliance Services Collection Operations
(CSCO) sites in Holtsville, New York; Cincinnati, Ohio; Memphis, Tennessee; Ogden, Utah; and
Philadelphia,'Pennsylvania. The CSCO management is responsible for establishing controls to
manage the Return Delinquency workload and to ensure resolution actions on Return
Delinquency notice responses are completed timely and accurately. The operation and
department managers should perform operational reviews at least once a year. These reviews
should evaluate both organizational and individual performance in accomplishing Program
objectives. Team managers should perform workload reviews to evaluate employee
performance, identify training needs, and ensure protection of taxpayer rights.

                                                                                                                007.
We conducted thi                                          generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
                       '




sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit



' The IRS database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
  A code recorded on the entity section of the Master File to identify the type of return a taxpayer must file. The
Master File is the IRS database that stores various types of taxpayer account information. This database includes
individual, business, and employee plans and exempt organizations data.
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                             Page 1
                  Tax Examiners Did Not Always Resolve Return Delinquency
                 Cases, and Computer Checks Did Not Identify Unfiled Returns



objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                         Page 2
                      Tax Examiners Did Not Always Resolve Return Delinquency
                     Cases, and Computer Checks Did Not Identify Unfiled Returns
                                                                        .   ,




                                       Resu/ts of Review

 Some Operational Controls Were Effectively Established
The clerical function in each campus batched Return Delinquency correspondence received from
taxpayers and used automation to control either the individual correspondence item or a batch of
25 or fewer items. Team managers systemically assigned the inventory to tax examiners in their
groups. Team managers also used the inventory control system and management information
reports to monitor inventory ac                                 olume of Return Delinquency
                                                               Campuses in Fiscal Year 2006

During the last quarter of Fiscal Year 2006, the CSCO conducted comprehensive training in
"Employee Performance Feedback for Campus Collection Managers." The training topics
reinforced the managers' key role of holding employees accountable for proper management of
assigned inventories and for timely and accurate account resolution actions. The training also
emphasized the team managers' responsibility for recordation of required workload reviews and
for providing evaluative feedback to their employees.
                                             manager and the Return Del
                                           r operations in Fiscal Year 20
Campus experienced change                  and there were no operational re
by the CSCO manager or the Return Delinquency department manager in Fiscal Year 2006. The
Return Delinquency team managers and the lead tax examiners at both Campuses documented
evaluative work reviews in the Embedded Quality Review S y ~ t e m In
                                                                   . ~ addition, the Return
Delinquency team managers documented in a written narrative format other types of work
reviews performed. Topics in group meeting minutes included case resolution procedures or
guidance..

Tax Examlners Did Not Always Take Appropriate Actions When
Resolving Return Delinquency Cases
The Return Delinquency computer program identifies tax returns that have not been filed. In
those instances in which a return has not posted to the taxpayer's record, a Return Delinquency
notice is sent to the taxpayer requesting information about his or her tax return. Tax examiners
must review the responses to the Return Delinquency notices, perform appropriate case research,


'The Embedded Quality Review System is anonline quality review database team managers use to record case
review results and generate employee feedback reports reflecting the quality and accuracy of case processing.
                                                                                                          Page 3
                      Tax Examiners Did Not Always Resolve Return Delinquency
                     Cases, and Computer Checks Did Not Identle Unffed Returns



and apply established case resolution procedures to determine the taxpayers7filing liability. If
taxpayers provide new or changed information such as a personal or business telephone number
with their responses, tax examiners should update the computer records. Tax examiners should
also attempt to resolve all issues on each case during the initial resolution of the taxpayer's
inquiry. The IRS goal is to resolve taxpayer correspondence within 45 calendar days after the
IRS receives it.
Our review of a random sample of 150 Return Delinquency correspondence cases5showed tax
examiners' actions on 36 cases (24 percent) were incorrect, incomplete, or not timely. The
36 cases included 23 instances in which tax examiners did not make the correct case resolution
decision, inappropriately eliminated future inquiries for missing returns, or did not complete
internal processing requirements. The remaining 13 case actions were not completed within the
IRS' 45-day time ~tandard.~   The number of days to resolve these cases ranged from 46 to
77 days. When Return Delinquency cases are not properly resolved, taxpayers might be
unnecessarily burdened with additional notices requesting returns they are not liable for filing.
Most of the 36 issues occurred in cases worked in                            discussions about
our findings, IRS management advised us that the workload at                  ampus had shifted
from Individual Master File7to Business Master File work and from the Balance Due Program to
the Return Delinquency Program. They attributed the majority of tax examiners' errors to lack
of experience with the new workload. They further advised that their local review of closed
Return Delinquency cases in March 2007 identified similar errors (e.g., incomplete case actions);
and the errors were discussed at team meetings to ensure employees are aware of proper
procedures.
These findings are similar to the                                  Campus Compliance Services
operational review performed at                                    2006. The IRS review results
indicated cases reviewed had improper closing actions. The review results attributed the cause
of the improper closing actions to tax examiners not understanding the taxpayer correspondence.
The review results recommended tax examiners receive additional training in interpreting
taxpayer correspondence and in other specified problem areas. It also stipulated additional
reviews of tax examiners' work should be performed to ensure errors do not continue. A
subsequent operational review completed in          2007 found approximately 26 percent of the
cases reviewed had errors. The review resul         cated the majority of cases with errors did not
receive all of the necessary closing actions to address the taxpayers' responses indicating a
change in the entity (e.g., change to another Employer Identification Number) or a change in


  We reviewed 50 closures from each of the 2 Taxpayer Delinquency Investi                               Service
Center and 50 closures from the 1 Taxpayer Delinquency Investigation team                               enter. See
appendix IV for a breakdown of the 150 cases by type of tax return and type
  We did not determine why the time standard was not met. One of these cases is included in the 23 cases in which
the tax examiner did not take all appropriate actions.
7
  The IRS database that maintains transactions or records of individual tax accounts.
                                                                                                          Page 4
      -
       ,)
      !#pi
                  Tax Exadners Did Not Always Resolve Return Delinquency
                 Cases, and Computer Checks Did Not identify UniTled Returns
                                  \




employment tax filing requirements. The review results did not contain any additional
reco'mmendationsregarding this area.
We did not identify any additional causes for the errors at              Campus. However, the
errors identified by our review and internal IRS reviews                 icator of potential
weaknesses in the effectiveness of various required managerial reviews. In Fiscal Year 2006,
there were no operational reviews of team managers to ensure the effectiveness of their
management practices. The IRS' 2006 guidelines on "Employee Performance Feedback for
Campus Collection Managers" require that on a quarterly basis, department managers are to
ensure team managers are performing technical case reviews. Team manager technical case
reviews are essential to maintain and improve employees' job knowledge and skills and to
identify performance deficiencies. Team managers are required to perform technical reviews of
two of each employee's cases per month. The team managers we interviewed indicated they had
not identified any error trends in their reviews. Although we verified that reviews were
documented in the Embedded Quality Review System, we could not assess the adequacy of team
managers' technical case reviews because taxpayer correspondence on closed cases is normally
destroyed after managerial reviews are completed.
In September 2007,                Campus advised us that actions have been initiated to improve
the review process by stressing the need for increased technical review and oversight by
managers. Management plans to perform quarterly comparisons between the Quality Review
and managerial reviews and will require the Department Manager to conduct annual operational
reviews of each Department and follow-up reviews until the problems identified are completely
addressed.

Recommendation
Recommendation 1:                       Campus CSCO manager should ensure reviews of team
managers' practices in performing technical case reviews are completed during required
quarterly team operations reviews. These reviews should ensure team managers are
appropriately selecting random and/or targeted samples of each employee's inventory for
technical case reviews. The reviews should include an assessment of whether the team managers
are correctly addressing the accuracy of case decisions and closing actions in their reviews.
                                                                        recommendation. IRS
                                                                        'have
      implemented review requirements for front line and department managers. In addition,
      the IRS Headquarters Office plans to perform an Operational Review i n m 2008 to
      follow-up on their previous recommendations and on the findings in this report.




                                                                                        Page 5
                       Tax Examiners Did Not Always Resolve Return Delinquency
                      Cases, and Computer Checks Did Not Identify Unfiled Returns



A Systemic Problem Caused Unfiled Forms 941 Not to Be Identified
Our review identified a serious weakness in which the Return Delinquency computer program
did not identify an unfiled Employer’s Quarterly Federal Tax Return (Form 941) when an
Employer’s Annual Federal Unemployment (FUTA) Tax Return (Form 940) was filed. The
Return Delinquency computer program should identify taxpayers with a Form 941 or a Form 940
filing requirement and no return posted to the taxpayer’s record for a specified tax period.
However, the current computer program does not cross reference both forms to identify a related
return that is due but not filed. As a result, a significant amount of dollars may not be collected
on accounts where related Forms 941 were not filed.
Business taxpayers who have employees are generally required to file Form 941. These returns
must be filed each quarter and include wages paid subject to Federal income tax withholding,
Social Security, and Medicare taxes. Generally, gross wages are subject to income tax
withholding and Medicare taxes. The maximum wage amount subject to Social Security tax is
set by law and was limited to $90,000 in 2005. Business taxpayers that meet wage payment
thresholds are also required to file Form 940 annually and pay taxes that fund unemployment
payments to workers who have lost their jobs. Forms 940 are used to report Federal
Unemployment Tax Act8 taxes that are imposed on the first $7,000 in wages paid to each
employee during the calendar year.
Our sample review of 150 cases included 20 Return Delinquency inquiries for the Form 940.
Our analysis of the IRS’ records for 13 of these taxpayers identified no related Form 941 was
filed and no delinquency inquiry was ever generated for the delinquent quarterly forms. Our
analysis not only identified a systemic weakness in the computer selection of Form 941 Return
Delinquency cases but also a need for a change in the requirement for employees to perform a
full compliance check to ensure taxpayers file all required tax returns.
Tax examiners obtained taxable returns from 3 of the 13 taxpayers that reported a combined total
of more than $177,000 in taxable Form 940 wages. However, these taxpayers did not file the
related delinquent Form 941 returns and no Return Delinquency case was computer generated
for these taxpayers. Since the Federal Unemployment Tax Act tax is imposed on only the first
$7,000 in wages paid to each employee during the calendar year, the potential amount of
unreported wages paid and corresponding taxes reported on Forms 941 could significantly
exceed the taxable Form 940 wages. As a result, the liabilities on these missing Form 941
returns could be significant.
To determine the potential universe of taxpayers that filed Forms 940 but did not file any
quarterly Forms 941 for Tax Year 2005, we analyzed IRS computer records. Our analyses
identified 28,933 taxpayers that had not filed any Forms 941 during Tax Year 2005 but filed Tax
Year 2005 Forms 940 reporting a combined total of more than $3 billion in taxable Federal

8
    26 U.S.C. § 3311 (2005).
                                                                                            Page 6
                     Tax Examiners Did Not Always Resolve Return Delinquency
                    Cases, and Computer Checks Did Not Identify Unfiled Returns



Unemployment Tax Act wages.9 We cannot reasonably estimate the amount of taxes due on
these unfiled Forms 941 because we do not know the total amount of wages paid and potential
amounts withheld. However, the amount of Form 941 wages could far exceed the
$3 billion reported on the Forms 940 and the related unpaid tax could be significant.
In addition to the systemic weakness, management’s decision to no longer require tax examiners
to perform full compliance checks contributed to the Forms 941 not being filed. Prior to
September 2006, CSCO employees were required to perform a full compliance check if a
taxpayer had other tax periods in a Return Delinquency status and if any missing return was due
within 6 years of the current calendar year. New procedures were then established for employees
to perform a full compliance check only if the taxpayer’s response met specified criteria.
Management relied upon the Return Delinquency computer program to identify unfiled
Forms 941.
An IRS official informed us the current Return Delinquency Program checks the filing
requirement of only a specified return type and it cannot cross reference other tax forms for an
indicator that a return is due. We were advised that this limitation and other issues prompted
management officials to initiate development of the Case Creation Nonfiler Inventory Program
for business taxpayers. When this program is fully developed in Fiscal Year 2008, the IRS
official expects to have the ability to cross reference third-party information documents and other
tax return filing requirements for indicators a return is due.

Recommendation
Recommendation 2: The Director, Campus Filing and Payment Compliance, Small
Business/Self-Employed Division, should modify the Return Delinquency case creation criteria
to ensure delinquency inquiries are made of related tax period Forms 941 and Form 940. The
Return Delinquency case resolution procedures should be revised to require full compliance
checks for delinquent employment tax returns of “in business” employers.
        Management’s Response: IRS management agreed with this recommendation. IRS
        officials advised that pending changes to the business Return Delinquency case creation
        program will enable cross checking of Forms 941 and Forms 940 beginning in
        April 2008. In addition, procedures requiring full compliance checks of “in business”



9
  Our criteria for identifying taxpayers that did not file quarterly Forms 941 when Forms 940 were present excluded
taxpayers that filed a 2005 Employer’s Annual Federal Tax Return for Agricultural Employees (Form 943) and
taxpayers identified as subsidiary corporations on the Master File.




                                                                                                            Page 7
          Tax Examiners Did Not Always Resolve Return Delinquency
         Cases, and Computer Checks Did Not Identify Unfiled Returns



employers when an unemployment tax return has been filed were implemented in
November 2007.




                                                                               Page 8
                      Tax Examiners Did Not Aiways Resolve Return Delinquency
                     Cases, and Computer Checks Did Not Identie Unflled Returns



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

 The overall objective of this review was to determine whether the CSCO administered the Return
 Delinquency Program in a manner that ensured accurate and timely resolution on Return
 Delinquency notice responses. To accomplish this objective, we:
 I.      Evaluated whether management in the campuses' we visited had established appropriate
         controls over the processing of Return Delinquency notice responses.
         A. Reviewed Internal Revenue Manual procedures for processing notice responses and
            workflow management.
         B. Observed the process for receipt, control, batching, and assignment of incoming
             notice responses and evaluated the adequacy of controls over these processes.
         C. Determined whether the CSCO manager and the Return Delinquency department
            manager performed and documented required reviews of the Return Delinquency
            Program.
         D. Determined whether team managers performed and documented required reviews of
            the work assigned to employees and took appropriate actions to ensure the quality of
            work.
11.                        samples of 50 R                   correspondence closures
                           us and 100 from                   pus to determine wheth
                           completed within the time standard set by the IRS.' We selected
                           Delinquency correspondence closures from a pop                 8 from
                          ampus and an estimated population of 7,521 fiom
                         ed a random sample to ensure each item in the population had an equal
        opportunity to be selected.


  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Compu
  We reviewed 50 closures




that some documents were removed for additional processing. To estimate the population of correspondence, we
relied upon the volume recorded on each batch and auditor judgment.
                                                                                                          Page 9
                     Tax Examiners Did Not Always Resolve Return Delinquency
                    Cases, and Computer Checks Did Not Identify Unfiled Returns



         A. Reviewed each case and evaluated whether the closing action was consistent with
            instructions in the Internal Revenue Manual or other procedures prescribed by the
            IRS National Headquarters.
         B. Compared the notice response received date and closing action date to determine if
            actions were completed within the 45-day time period prescribed by the IRS National
            Headquarters.
         C. Analyzed the IRS’ Business Master File4 for Tax Year 2005 and determined the
            potential universe of taxpayers that filed an Employer’s Annual Federal
            Unemployment (FUTA) Tax Return (Form 940) but did not file the related
            Employer’s Quarterly Federal Tax Return (Form 941).
             1. We researched the Integrated Data Retrieval System5 for several taxpayer accounts
                in the universe of accounts that met our analysis criteria. We verified that the
                taxpayers had filed Form 940 but did not file Form 941.




4
  The Business Master File is the IRS database that consists of Federal tax-related transactions and accounts for
businesses. These include employment taxes, income taxes on businesses, and excise taxes.
5
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                             Page 10
                 Tax Examiners Did Not Always Resolve Return Delinquency
                Cases, and Computer Checks Did Not Identify Unfiled Returns



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker Pearson, Director
Edward Gorman, Audit Manager
Doris A. Cervantes, Senior Auditor
Una Smith, Senior Auditor
Stephen A. Elix, Auditor
Judith Harrald, Information Technology Specialist




                                                                                        Page 11
                Tax Examiners Did Not Always Resolve Return Delinquency
               Cases, and Computer Checks Did Not Identify Unfiled Returns



                                                                          Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Campus Filing and Payment Compliance, Small Business/Self-Employed Division
SE:S:CCS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Services and Enforcement SE
       Commissioner, Small Business/Self-Employed Division SE:S




                                                                                  Page 12
                Tax Examiners Did Not Always Resolve Return Delinquency
               Cases, and Computer Checks Did Not Identify Unfiled Returns



                                                                                           Appendix IV

               Resolution Actions in Sample
          of Return Delinquency Correspondence

                                          Tax Examiner Case Resolution Decision
                                                                                   Account
                                 Taxpayer     Taxpayer                             previously
                                 not liable   no           Taxpayer                resolved
                                 for          longer       previously   Taxpayer   or other
                                 return       liable for   filed        return     actions
       Type of Return            period       return       return       secured    required     Totals
 United States Gift (and
 Generation-Skipping
 Transfer) Tax Return
 (Form 709)                                                                                1             1
 Quarterly Federal Excise Tax
 Return (Form 720)                       1                                    1                          2
 Employer’s Annual Federal
 Unemployment (FUTA) Tax
 Return (Form 940)                      3          5            1           9              2        20
 Employer’s QUARTERLY
 Federal Tax Return
 (Form 941)                            13         22            3          39             22        99
 U.S. Return of Partnership
 Income (Form 1065)                                2                                                     2
 U.S. Corporation Income Tax
 Return (Form 1120)                    15          3                        4              3        25
 Annual Return for
 Partnership Withholding Tax
 (Section 1446) (Form 8804)                                                                1         1
 Totals                                32        32             4          53             29       150
Source: Treasury Inspector General for Tax Administration analysis of sample results.




                                                                                                    Page 13
                 Tax Examines Did Nof Always Resolve Return Delinquency
                Cases, and Computer Checks Did Not ldenflJIy Unfiled Refums



                                                                                                  Appendix V

   Management's Response to the Draft Report




.MALL
             COMMISSIONER
        ~U8IW~88/SELCCYPLOVCO
                            DIVImIOH




        MEMORANDUM FOR MICHAEL PHILLIPS
                                       DEPARTMENT OF T H E TREASURY
                                         I N T E R N A L RLVPNUE S L R V l C E
                                             WASHINGTON, D.C. a O I P 4



                                               November 30,2007


                       DEPUTY INSPECTOR GENERAL FOR AUDIT
                                                                                 1 ..
                                                                                       .aEcma


                                                                                      --%-
                                                                                                  -
        FROM:                   Kathy K. ~ e t r o n c h a k 4
                                Commissioner, Small

        SUBJECT:                                       -
                                Draft Audit Report Tax Exemlnera Dld Not Always
                                Resolve Return Delinquency Caaes and Computer Checks Dld
                                Not Identify Unfiled Returns (Audlt # 200630008)

        Thls memorandum is In response to your report entltled MTaxExamlners Did Not Always
        Rowbe Retum Delinquency Casee and Computer Checks Did Not Identify Unflled
        Returns". We agree wlth the recommendattons contained In the report.
        lncreaslna voluntary nllng compllance Is an important component of addressing the tax
        gap. YOU;                b that some delinquent return case6 were not accurately
        rooolved a                                                          - shortfalls. These
                                  Campus due -prlmarilv to mview and tralnlne
        b s w s have slncs been addressed.
        In additlon, your report klentifled a programmlng conatmint whlch dld not allow for
        aoss-checklng of unemployment tax retums (Form 940) with employment tax retums
        (Form 041). We acknowledge the cross-check of Forms 940 and 941 was not
        systemlaally avallable for the cases cmated and that pmcedures regarding full
        compllance checks need to be revised until the swtemlc cross-check Is avallable. Thls
        same constraint was previously ldentmed by management and resources were allocated
        for corrective programming. The prograrnmlng Is echeduled for Implementationin April
        2008.

        In the Interim, and In accordance with the recommendation In thls report, we issued
        changer to the Internal Revenue Manual (IRM) effectlve November 5,2007. These
        changes require Small BuslnedSeIf-Employed (SBISE) Campus operations to perform
        a full compliance check for dellnquent employment tax mtums of In-business employem
        when an unemployment tax return has been filed. These Interim procedures wlli mmaln
        In effect until the programmlng enhancement Is oompleted.

        Attached are detalled comments on the recommendations. If you have any questlona,
        pbane contact Jeffrey Basaila, Dlrecfor, SB/SE Campus Compliance Services. Flllng
        and Payment Compllance at 202-283-7300.

        Attachment




                                                                                 --          .-       -


                                                                                                      Page 14
     Tax Examiners Did Not Always Resolve Return Delinquency
    Cases, and Computer Checks Did Not Identify Unfiled Returns




                                                                            Attachment
                ampus compliance Services Collection Operations (CSCO) manager
              mvlews of team managers' practices in performing technical case
revlews are completed during requiredquarterly team operatlons reviews. These
review should ensure team managers are appropriately selecting random andlor
taraeted ramplee of each employee's inventoryfor technical case reviews. The reviews
sh6uld include an assessmed of whether the team managers are correctly addressing
the accuracy of case declslons and closing actions in their revlews.

                                                  Y.-
                          ....      ................ I..... --..- ., 'Implemented revkw
requirements for front line and department managers prior to issuance of this report.
          r~ has scheduled the FY 2008 Operation Review for the week of
           2008 and will follow-up on the recommendations of the previous Operation
Review as well as this TlGTA Audit and report flndlngs.

Im~lementatlonDate:
March 15,2008.

                              Senrices, Flilng & Payment Compliance

Fomctlv. Action Monltorinn Plan:
The Filing Compliance Program Manager will monltor the correctiveactions and notify
the Dlrector, Flllng and Payment Compliance of any delays.

          endation 2;
The Dlrector. Campus Flling and Payment Compliance, Small BuslnesslSelf-Employed
                                                                              -  -
Dhrlslon, should mbdify the~eturndellnquency~msecreatlon criterla to ensure
delinquency lnqulrles are made of related tax periods Forms 941 and Form 940. The
Return Delinquency case resolutionproceduresshould be revised to require full
compliance checks for delinquent employment tax returns of 'in business" employers.

C mctlv c       .
A   :b
     nu
      :si   r%% dallnquency cue'creatlon program has pendlng swtemlc
programming changes that completely revamp the -mthod of creating delinquent return
case* as well as mailing notices to nonfilina businesses. The campus return
delinquency full compl&nce procedures h a h been revised to include the requirement
for full corn~iiancechecks for Form 841 tax returns when a Form 940 delinauent module
has been riaohred.


May 15,2008




                                                                                          Page 15
 Tax Examiners Did Not Always Resolve Return Delinquency
Cases, and Computer Checks Did Not Identify Unfiled Returns




                                                       Page 16
